                       Evaluation of the Self-Assessment Process 

                            For Information System Security

                          Report No. 03-02, December 27, 2002


                                        INTRODUCTION 


This report presents the results of the Office of Inspector General’s (OIG) evaluation of
the self-assessment process for information system security at the Railroad Retirement
Board (RRB).

BACKGROUND

The RRB administers comprehensive retirement/survivor and unemployment/sickness
benefit programs for railroad workers and their families under the Railroad Retirement
Act (RRA) and Railroad Unemployment Insurance Act (RUIA). These programs provide
income protection to railroad workers and their families during old age and in the event
of disability, death, temporary unemployment, or sickness. The RRB paid over $8.8
billion in benefits during fiscal year (FY) 2002.

The RRB’s information system environment consists of two general support systems
and seven major application systems. The two general support systems are the data
processing system, which supports all mainframe computing activity; and the end-user
computing system, which supports the agency’s local and wide area networks.

The RRB’s major application systems correspond to its critical operational activities:
payment of RRA and RUIA benefits, maintenance of compensation and service records,
administration of Medicare entitlement, financial management, personnel/payroll, and
the RRB’s financial interchange with the Social Security Administration.

An information security self-assessment is a key part of the annual agency program
review process. The self-assessment process is used to determine the current status of
a security program, and where necessary, to establish a target for improvement.

The Office of Management and Budget (OMB) has instructed agencies to apply National
Institute of Standards and Technology (NIST) guidelines to achieve adequate security
over Federal computer systems. NIST has published a self-assessment guide that
presents a standardized approach for assessing system security using long-standing
requirements found in statute, policy, and other guidance.1 The guide establishes a
minimum standard for evaluating the security of Federal information systems. It
includes an extensive questionnaire containing specific control objectives, elements,
and techniques against which systems can be tested and measured.




1
 NIST Special Publication 800-26, “Security Self-Assessment Guide for Information Technology
Systems,” November 2001.
The Government Information Security Reform Act (GISRA), signed into law October 30,
2000, required annual agency program reviews and annual Inspector General security
evaluations, with subsequent reports to OMB and Congress. In FY 2001, agencies had
wide latitude in selecting a self-assessment methodology. In FY 2002, OMB mandated
implementation of the NIST methodology. Compliance with this requirement could be
achieved through the use of the NIST self-assessment guide or an equivalent
evaluation tool.

In FY 2002, OMB directed Federal agencies to confirm, as part of the GISRA reporting
process, whether their assessment methodology was comprehensive with respect to
key NIST standards. Although the RRB reported that their self-assessment process
had sufficiently addressed all NIST objectives, the OIG disagreed. In its report to OMB,
the OIG stated that “our evaluation of the RRB questionnaire confirms seven of the 17
NIST elements were addressed. However, the RRB questionnaire deals primarily with
general policy and procedure issues and lacks sufficient coverage to match the specific
control objectives and techniques provided by NIST.”

Responsibility for the RRB’s agency-wide information security program is vested in its
Chief Information Officer. The Chief Information Officer, through his staff in the Bureau
of Information Services, oversees planning, implementation and evaluation of
information security including the self-assessment process. The RRB engaged the
services of contractors to facilitate the agency’s security self-assessments in FY 2001
and FY 2002.

The RRB has established the development of a sound and integrated information
technology architecture, which includes information security, as a strategic element of
its larger objective to use technology and automation to foster fundamental changes
that improve the way the agency does business. This audit directly supports this
objective.


OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this review was to evaluate the effectiveness of the self-assessment
process for information system security at the RRB during FY 2001 and FY 2002. In
order to accomplish our objective, we:

   •   reviewed applicable laws, regulations, and NIST guidance;
   •   obtained and reviewed self-assessment questionnaires and responses;
   •	 assessed agency compliance with OMB requirements and self-assessment
      guidance; and
   •   interviewed agency personnel responsible for the self-assessments.




                                            2 

Our work was performed in accordance with generally accepted government auditing
standards as applicable to the objective. Field work was conducted at RRB
headquarters during September and October 2002.


                                RESULTS OF REVIEW 


The RRB’s self-assessment process for information system security has not been
effective in assessing the current status of the RRB’s security program as a basis for
future improvement. In general, we observed a lack of quality control for this contractor
conducted process. Our review disclosed that the agency’s FY 2002 self-assessment
process was weakened by:
   •   inadequate coverage of NIST objectives, elements and techniques;
   •	 anonymous, incomplete responses to the questionnaire that served as its basic
      evaluation tool; and
   •   a lack of supporting documentation.
In addition, the agency was unable to locate any significant amount of detailed
documentation to support their contractor’s conclusions for FY 2001.

Management concurs with our recommendations and has planned corrective action to
improve the self-assessment process. The details of our findings and recommendations
follow. The full text of management’s response is included as an appendix to this
report.


THE FY 2002 ASSESSMENT PROCESS WAS NOT NIST COMPLIANT

The RRB’s FY 2002 security self-assessment did not adequately address control
objectives, elements, and techniques established by NIST for Federal agencies.

OMB Circular A-130 instructs Federal agencies to apply NIST guidelines in order to
achieve adequate security over their computer systems. NIST has developed a self-
assessment tool that consists of an extensive questionnaire containing specific control
objectives, elements, and techniques against which a system can be tested and
measured.

During FY 2001, specialists under contract to the agency performed security self-
assessments using the NIST questionnaire. The contractor assessed the status of
security in four of the agency’s nine major information systems.

In fiscal year 2002, the agency employed the services of a different contractor to
facilitate its security self-assessment. That contractor evaluated all nine systems using
a questionnaire developed by the International Organization for Standardization (ISO).



                                             3 

The ISO questionnaire did not fully address all NIST objectives, elements and
techniques. A comparison of the ISO and NIST questionnaires showed that the subject
matter was not comparable. For example, the NIST questionnaire addresses the
control objective for personnel security related to an organization’s employees; the ISO
questionnaire focuses on security issues related to contractor personnel.

The RRB’s contractor supplemented the ISO questionnaire with existing draft
versions of computer security plans and follow-up interviews with agency personnel.
However, since computer security plans do not contain an appropriate level of detail
and the follow-up interview process was not fully documented, they are a poor
substitute for a properly developed questionnaire. In addition, the change in
methodology from FY 2001 to FY 2002 adversely impacts the comparability of the
data gathered.

Agency personnel have indicated that time constraints influenced their decision to
accept the contractor’s methodology in lieu of the NIST questionnaire in FY 2002.

As a result, the self-assessment process does not provide a basis for determining
whether the current status of information security represents an improvement or
degradation in the quality of performance over the prior period. Absent a consistent,
compliant process, the RRB will be forced to continually reapply its efforts in
determining the initial status of security controls. This inefficient process restricts
management’s ability to build a valid plan of action for improvement.

Recommendation

The Bureau of Information Services should ensure that, whether performed by agency
personnel or specialists under contract to the agency, the self-assessment process:

   1. is comprehensive with respect to NIST objectives, elements, and techniques; and
   2. 	 provides a consistent basis for assessing changes in the agency’s security status
        from year to year.

Management’s Response

Management concurs with the recommendations and plans to implement an automated
software tool developed by NIST to conduct future assessments. They also plan to
incorporate the self-assessment process into existing procedures.


SELF-ASSESSMENT PROCESS IS INCOMPLETE

The FY 2002 self-assessment process was incomplete. Some questionnaires were not
returned, responses to some questions were not credible, and the responding officials
were not identified.



                                            4 

The General Accounting Office (GAO) Standards for Internal Control in the Federal
Government state that information shall be recorded and communicated to
management and others within the entity who need it, in a form and within a time frame
that enables them to carry out their internal control and other responsibilities.2 For an
entity to run and control its operations, it must have relevant, reliable, and timely
communications.

Questionnaires for each of the RRB’s nine major systems were released to the
responsible agency officials. However, responses were returned for only four systems.
None of the responses were signed or dated so it is not possible to hold individuals
accountable for the quality of their response. In addition, the questionnaires for the
mainframe and end-user computing environments, which are the responsibility of the
Bureau of Information Services, were incomplete and lacked credibility. One of the
respondents had answered only half of the questions and both respondents denied
knowledge of an agency security policy.

The RRB has no control in place to ensure that self-assessment questionnaires are
completed, returned, and contain credible information. As a result, the agency has not
collected the relevant, reliable, and timely information needed to complete the security
evaluations.

Recommendation

      3. 	 The Bureau of Information Services should develop controls to ensure that the
           self-assessment process is complete and credible.

Management’s Response

Management concurs with the recommendation. Management plans to implement an
automated software tool to facilitate the self-assessment process that will permit the
Bureau of Information Services’ Risk Management Group to conduct an independent
assessment and verification of the submitted results.


SELF-ASSESSMENT PROCESS IS NOT FULLY DOCUMENTED

The self-assessment process was inadequately documented in both FY 2001 and FY
2002. The self-assessment process is a significant internal control activity that should
be fully documented. The RRB does not have controls in place to ensure that
documentation to support contractor conclusions is retained in agency files. As a result,
the basis for contractor conclusions about information security cannot be determined.

GAO Standards for Internal Control in the Federal Government state that internal
control and other significant events need to be clearly documented, and that the
documentation should be readily available for examination. The standards further state
2
    GAO/AIMD-00-21.3.1, November 1999.


                                              5 

that control activities need to be established to monitor performance measures and
indicators. These control activities should validate the propriety and integrity of
performance measures, and could call for assessments and analyses that lead to
further action. In FY 2002, OMB established agency self-assessments as a key
performance measure to be reported under GISRA.

Agency management was unable to locate completed questionnaires or other
documentation to support the FY 2001 self-assessment. The FY 2002 self-assessment
process included interviews with responsible management and staff to supplement the
questionnaires that served as the basic assessment tool. Neither the questions used,
nor the information obtained during the interviews, were fully documented. Only the
general subject matter of interviews conducted in FY 2002 was recorded.

Future improvement in the RRB’s security program will be dependent upon the agency’s
ability to assess relevant and reliable security information, and to plan further action
accordingly. These plans of action may require periodic modification, which can only be
efficiently accomplished through the review of reliably maintained documentation.

Recommendation

   4. 	 The Bureau of Information Services should ensure that the information gathered
        during the RRB’s self-assessment process, whether performed by agency staff or
        specialists under contract to the agency, is clearly documented and maintained.

Management’s Response

Management concurs with the recommendation. Management plans to implement an
automated software tool to facilitate the self-assessment process that will provide the
necessary means to obtain documented results for each self-assessment.




                                            6 

